                                ,<ATIONALSCIENCE FOUNDATION
                                    ARLINGTON, T7A 22230




           Office of
I   I n s p e c t o r General



    MEMORANDUM
           DATE:       June 13_, 4994
                                            , Special Agent
                                                                        .




     SUBJECT: Allegation of impropeq-J

              TO:      Case No. I94050023


    Foundatiorl ( N S F ) employee
    ~r.-          is a ;ilenlber of the
                                        &
    On May 10, 1994 we received an alle ation from National Science
                                               pf imprope-
                                                           c~jrrentlyasslgned
     to Conference Services, Divisikn oot ~dministrati-gc     Services (DAS).
    Mr.-          beli                                  properly accessed by
    his supervisor,                                   e D-;vision Chief of
    Conference Servi                                      Mr.          stated
    that on April 18                                  s monitor telling him
     to change his                password. Mr.               spoke with the
    Dostmaster who told hlm his mailbox had needed to be moved. Mr.
             inquired sbout the matter through-      -   .
                                                                    DAS. Ms.
            told him that access t                      had been granted to
                                                      by the postmaster.
                                        -




    On May 12, 1994 I spoke with postmasters
                                   Head
    Access to Mr.                            was not given to anyone.
    As we found no evi-dence to substantiate the allegation of.improper
    access to           further investigation of the allegation is not
    warranted a        time.
    This case is closed.
